 Office of Inspector General
     Audit Report


PROCESS INEFFICIENCIES AND COSTS
DISCOURAGE PARTICIPATION IN FRA’S
         RRIF PROGRAM
       Federal Railroad Administration

        Report Number: CR-2014-054
         Date Issued: June 10, 2014
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Process Inefficiencies and Costs                  Date:    June 10, 2014
           Discourage Participation in FRA’s RRIF Program
           Federal Railroad Administration
           Report No. CR-2014-054

  From:    Mitchell Behm                                          Reply to
                                                                  Attn. of:   JA-30
           Assistant Inspector General for
             Surface Transportation Audits

    To:    Federal Railroad Administrator

           The Railroad Rehabilitation and Improvement Financing (RRIF) program,
           established in 1998 and administered by the Federal Railroad Administration
           (FRA), provides loans and loan guarantees to railroads and other entities to
           finance rail infrastructure projects. To date, FRA has issued 33 RRIF loans
           totaling roughly $1.7 billion—less than 5 percent of the program’s authorized
           $35 billion spending limit. Members of Congress have expressed concerns that the
           program’s lengthy application process and the associated costs may be
           contributing to this low participation rate.

           As a result of these concerns, we conducted this audit to (1) assess FRA’s policies
           and procedures for evaluating and selecting RRIF applications; and (2) identify
           factors that affect applicants’ decisions to apply for RRIF financing.

           We conducted our audit between March 2013 and April 2014 in accordance with
           generally accepted Government auditing standards. In our work, we reviewed
           RRIF’s authorizing statute, 1 associated regulations, and program guidance. We
           also met with FRA officials, and reviewed processing data for the 29 applications
           that the program received between January 1, 2010, and April 30, 2013. To
           identify factors that influenced applicants’ decisions on whether to apply to RRIF,
           we randomly selected and interviewed 15 applicants and 7 prospective applicants.
           See Exhibits A, B, and C for additional information on our scope and
           methodology and a list of past, present, and prospective applicants.


           1
               45 USC §§ 822 et seq
                                                                                                                    2


RESULTS IN BRIEF

FRA’s policies and procedures for evaluating RRIF applications and selecting
RRIF loan recipients are not effective. Insufficient guidance on the program’s
eligibility criteria, application procedures and requirements has frequently led to
incomplete applications, causing substantial delays. Of the 29 applications we
reviewed, 9 are still pending. For the remaining 20, FRA took an average of 278
days working with applicants to complete their applications. 2 Ultimately, however,
the Agency determined that only 6 of these applications were complete. Under
RRIF’s authorizing statute, 3 FRA has 90 days to review and render decisions on
completed applications. However, the Department of Transportation’s (DOT)
Credit Council 4 and the Office of Management and Budget (OMB) must also
review complete applications before the Administrator approves the loan and the
loan terms are finalized. Because of these sequential reviews, FRA rendered
decisions for only 2 of the 6 complete applications within the statutory 90 days.
Furthermore, because the program does not use a risk based approach to review
applications for loans under $1 billion, processing times for low risk applications
can be lengthy.

Insufficient guidance has discouraged some applicants and program costs have
deterred others from applying for RRIF loans. Of the 15 applicants we spoke with,
3 stated that FRA took months to inform them that their applications were
incomplete. Ultimately, one of these applicants withdrew their applications.
Applicants also reported that FRA did not provide requested information about
their applications’ status, or explain the reasons for denials. Officials from
passenger 5 and Class I freight railroads informed us that they generally would not
consider applying to the program because RRIF’s unclear process and uncertain
timeline outweighed the financial benefits of RRIF loans. Most of these officials
noted that private financial markets gave them better control than the RRIF
program over the planning, timing, and execution of their capital projects.
Officials from some short-line railroad noted that payment of the required credit
risk premium 6 (CRP) prior to loan disbursement and the potential costs of hiring
financial and legal consultants to assist with the application process deterred them
from applying.



2
  Of the 20 applications, 4 applicants were ineligible and 12 withdrew.
3
  The Transportation Equity Act for the 21st Century, P.L. No. 105-178.
4
  The Council was established in 2004 to ensure the application of consistent credit policies and management practices
across all DOT credit programs.
5
  Includes the National Railroad Passenger Corporation (Amtrak), and other passenger railroads such as commuter and
privately owned intercity rail lines.
6
  A reimbursable cost required by the Credit Reform Act of 1990 that equals the net present value of expected losses
due to default, delinquency, or prepayment—generally up to 5 percent of a loan amount.
                                                                                                                 3


We are making recommendations to FRA to improve the RRIF loan application
process.

BACKGROUND

RRIF was established by the 1998 Transportation Equity Act for the 21st Century7
to promote the development of railroad infrastructure. The program targets freight
and intercity passenger and commuter railroads, but State Governments, local
Governments, and joint ventures that include at least one railroad may also be
eligible. The program may finance up to 100 percent of a project for as long as 35
years at interest rates equal to the Federal Government’s cost of borrowing. It
allows borrowers to defer loan repayments for 6 years. Seven billion of RRIF’s
$35 billion authorized spending limit is reserved for Class II and Class III freight
railroads. 8 Class I railroads are railroads with annual revenues over $433.2
million. Class II railroads are regional short-line railroads with annual revenues
between $40 million and $433.2 million. Class IIIs are local short-line railroads
with annual revenues of less than $40 million.

RRIF is one of four credit programs 9 that DOT administers. All applications for
loans, loan guarantees, and other financial assistance from these programs must be
reviewed by the Department’s Credit Council. The Council, chaired by the Deputy
Secretary of Transportation, makes recommendations to loan programs’ deciding
officials on whether or not to finance applicants.

RRIF’s authorizing statute requires FRA’s Administrator 10 to render a decision on
each complete application within 90 days of receipt. As illustrated in figure 1,
FRA has a two-phase process for RRIF applications. In the first phase, program
staff work with applicants to determine their eligibility and complete their
applications. The second phase—the application review phase—begins with
FRA’s acknowledgement that an application is complete and starts the 90-day
statutory clock. It concludes with the FRA Administrator’s decision on whether or
not to issue a loan.




7
  The program was amended in 2005 by the Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy
for Users (P.L. No. 109-59, known as SAFETEA-LU).
8
  In 2011, DOT classified railroads based on their annual revenues.
9
   The other three are the Transportation Infrastructure Finance and Innovation Act program; the Minority Business
Resource Center Short-Term Lending program; and the Title XI Federal Ship Financing program.
10
    The statute required the Secretary of Transportation to approve all RRIF loans, but authority was subsequently
delegated to the FRA Administrator.
                                                                                                                                            4


Figure 1. Overview of the RRIF Application Process

        Application Completion Phase                                               Application Review Phase

Pre-Application       Application           Hire an IFA        Due Diligence       Credit Council       OMB Review        Loan Approval
   Meeting                                                                            Decision
• FRA staff meets   • FRA staff accept   • FRA staff          • 90-day             • FRA staff         • Office of        • FRA
  with                applications and     conduct a            statutory clock      conducts a          Management         Administrator
  prospective         assess need for      preliminary          begins when          voting              and Budget         approves RRIF
  applicants who      environmental        financial review     application is       presentation to     (OMB) reviews      loan and
  request an          and engineering      of the proposed      deemed               Credit Council      and concurs        notifies
  optional pre-       reviews and          transaction.         complete.            followed by a       with DOT’s CRP     successful
  application         whether            • Hire an            • IFA completes        Credit Council      calculation.       applicants.
  meeting.            applicant is         Independent          financial due        vote to
                      eligible to          Financial            diligence and        recommend or
                      participate in       Analyst (IFA) to     issues a draft       deny loan
                      the program.         perform              report.              request.
                                           additional due     • FRA staff          • DOT submits
                                           diligence.           conduct a            the CRP
                                                                summary              calculation to
                                                                presentation for     OMB for review
                                                                Credit Council       and comment.
                                                                and obtain
                                                                feedback.


Source: OIG analysis

Applicants are responsible for a number of costs associated with the RRIF
application process. There is a non-refundable application fee of up to one-half of
1 percent of the loan amount. This fee covers the expenses FRA incurs to retain
independent financial analysts (IFA) and legal consultants to help it process
applications. Applicants also incur costs for legal and financial consultants they
may hire to help navigate the application, environmental 11 and engineering review
processes. Furthermore, successful applicants must pay CRPs based on their
financial viability and the value of their loan collateral. A CRP equals the net
present value of expected losses due to default, delinquency, or prepayment, and
generally ranges between 0 and 5 percent of the loan amount. Loan recipients must
pay CRPs in advance of receiving loan proceeds and cannot finance them with
loan proceeds. CRPs from applicants approved over a defined period—typically 1
year—are pooled together and returned to the borrowers after all associated loans
are repaid minus any loan losses.

The loans that RRIF has issued to date range in size from $53,000 to a privately
owned local railroad to $563 million to Amtrak. Nine of RRIF’s 33 loans have
been repaid in full and one borrower has defaulted. 12 As seen in figure 2, the
number of issued loans has declined since 2007. Exhibit D provides further
analysis of the 29 RRIF applications received between January 1, 2010 and April
30, 2013.


11
   All Federal transportation-related capital assistance requires environmental reviews in compliance with the National
Environmental Policy Act (NEPA) of 1969 (42 USC § 4321 et seq).
12
   As of April 30, 2014, Montreal Maine and Atlantic Railroad was in payment default and bankruptcy.
                                                                                     5


Figure 2. RRIF Loans Issued to Date

               600
                                                  6
               500
                                   5      5

               400
  $ Millions




               300           3                             3             3

                     2   2                                           2       2
               200

               100
                                                                                 0
                                                      0
                 0



                                       Loan Amt       No. of Loans

Source: OIG analysis of FRA data

FRA’S RRIF APPLICATION PROCESS LACKS SUFFICIENT
GUIDANCE AND IS NOT TIMELY

FRA does not have an effective process for evaluating and selecting RRIF
applications. The Agency’s guidance is not comprehensive, and as a result,
applicants frequently submit incomplete applications. Consequently, FRA spends
significant time obtaining information needed to complete applications. The Credit
Council and OMB must also review complete applications, making it difficult for
FRA to make a decision and finalize loan terms within the mandated 90 days.
Furthermore, because FRA uses the same procedures to review applications for
loans under a billion dollars, those for low risk loans may take longer to process
than necessary.

FRA’s Guidance Does Not Provide Sufficient Detail on Application
Requirements

Because FRA’s RRIF program guidance does not provide sufficient information
on eligibility criteria, application requirements, and the application process,
applicants have difficulties completing their applications. The guidance—available
on the program’s Web site—consists primarily of a reiteration of requirements
from the program’s authorizing statute and the application form, and is missing
important information. For example, the guidance does not explain the level of
financial detail that applicants must submit or fully describe the application
evaluation process. It also does not include information on the requirement that all
applicants for Federal loans comply with NEPA and the FRA’s Buy America
                                                                                                                   6


policy (Buy America). 13 Of the 29 applications we reviewed, 9 are still pending.
FRA worked with the remaining 20 applicants for an average of 278 days helping
them complete their applications.

Furthermore, FRA does not ensure that all aspects of the process are discussed at
pre-application meetings. A pre-application meeting provides an opportunity for
FRA to clarify program requirements for an applicant. However, the Agency has
not made the meeting a required part of the application process and not all
applicants have chosen to attend one. Furthermore, FRA has not developed
guidance for applicants that attend these meetings, and RRIF program managers
told us they did not have detailed materials to give attendees. As a result, the
meetings do not seem to reduce the time that FRA takes to process applications.
Of the 29 applications we reviewed, 15 applicants 14 attended pre-application
meetings, and FRA took an average of 384 days to process their applications.

FRA officials told us that they consider an application complete when its IFA
confirms receipt of all information needed to determine the applicant’s credit
worthiness, and the required environmental and engineering reviews are near
completion. However, as of December 31, 2013, FRA had determined that only 6
of the 29 applications received during our review period were complete and
moved to the review phase. The Agency took an average of 219 days, and as many
as 517, to obtain missing information and determine applications’ completeness.
FRA management stated that the program accepts all applications and often acts as
a “sympathetic lender.” For example, one applicant was found to be
un-creditworthy and financially ineligible. Rather than deny the applicant at that
point, however, FRA management took the time to reexamine the applicant, and
took 183 days to reaffirm its original decision that the applicant was ineligible. In
another instance, FRA allowed an applicant to make significant modifications to
its application on three occasions and restarted the evaluation process each time.
The Agency took 28 months to process the application and determine that it was
eligible. Twelve of the 29 applicants withdrew their applications for a variety of
reasons, including general discouragement with the process.

Inadequate guidance and ineffective pre-application meetings result in incomplete
applications that require RRIF program staff to spend significant time dealing with
ineligible applicants and obtaining missing information. During the course of the
audit, FRA acknowledged that the application process is not streamlined and is
taking steps to improve it. One initiative involves developing a checklist of
program requirements to guide discussions with potential applicants.


13
  FRA is not subject to the Buy America requirements in 49 USC § 5323, but applies them as a matter of policy.
14
  Nine additional applicants attended pre-application meetings. However, this analysis does not include them because,
as of December 31, 2013, their applications were still undergoing review.
                                                                                                           7


FRA Did Not Always Comply with RRIF’s 90 Day Statutory
Requirement

RRIF’s authorizing statute requires FRA’s Administrator to render a decision on a
complete application within 90 days of receipt. However, before the Administrator
can make a decision and the terms of the loan can be finalized, DOT requires that
the application be reviewed by FRA and its IFA, the Credit Council, and OMB
must review and concur with the CRP calculation. For the 6 applications that were
submitted to the review phase, FRA’s IFAs alone took an average of 57 days and
as many as 105 to complete their reviews and issue their reports.

After an IFA’s review, an application is usually presented to the Credit Council on
at least two occasions—first for an informational presentation, and then for a
Council vote on a recommendation to the Administrator. Because it typically
meets monthly, the Council takes at least 30 days between the 2 presentations. The
Council may also reschedule presentations because of members’ schedule
constraints or need more meetings to obtain additional information. Furthermore,
OMB must concur with FRA’s calculations of an applicant’s CRP before the
Administrator’s final decision.

As a result of these sequential review steps, FRA made final decisions within the
statutory 90 days for only 2 of the 6 applications we reviewed that progressed to
the review phase. As seen in figure 3, FRA took as long as 499 days to process
applications in the application approval phase. Two applicants withdrew before
decisions were made on their applications; one spent 233 in the review phase
before withdrawing and the other 247 days.

Figure 3: Total Time in the Application Review Phase for the Six
Completed Applications

 Alameda Corridor Transportation Authority                              499


   Kansas City Southern Railway Company               163


                   C&J Railroad Company          75


                                   Amtrak        72


                   Port of Vancouver USA*                   233


       Brookhaven Terminal Holding, LLC*                    247

                                             0         100        200         300        400   500   600
                                                                        Number of Days

Source: OIG analysis of FRA data
* Applications were withdrawn prior to a final decision.
                                                                                  8


Furthermore, FRA has not established criteria for assessing the risk associated
with applications for loans under $1 billion, and uses the same review process for
all applications—regardless of loan size, applicant creditworthiness, or project
complexity. Loans applied for have ranged in size from $56,000 to $6.5 billion,
and applicants have had varying degrees of creditworthiness. Furthermore,
projects seeking RRIF funding range in complexity from straight forward
locomotive purchases to railroad reconstruction and land development. However,
because the program does not use a risk based approach to review applications,
processing times for low risk applications can be lengthy.

PROCESS UNCERTAINTIES AND COSTS DETER APPLICANTS
FROM USING THE RRIF PROGRAM

The lack of clear information on RRIF’s process has frustrated some applicants
while costs associated with the program have deterred others from applying. In
many cases, FRA did not provide applicants with requested information about
applications’ status or the reasons for loan denials. Lastly, costs, including the
CRP and those incurred to hire consultants, were burdensome for small railroads,
and the program’s unclear process and uncertain timing outweighed program
benefits for large ones.

FRA Did Not Provide Sufficient Information on the RRIF
Application Process

Applicants were unsure how the application process worked, and FRA did not
provide the information they needed. For example, one applicant told us that FRA
did not inform it that it had to comply with Buy America until late in the
application process, and the engineering review required to ensure compliance
with Buy America extended the process. Other applicants stated that they were not
informed that their applications were incomplete when they first submitted them.
For example, three applicants told us that they submitted what they thought were
complete applications. However, one applicant noted that it did not hear from FRA
for months regarding its application. When the applicant contacted the Agency,
FRA stated that the application was not complete and the applicant needed to
provide additional information. FRA asked the other two for additional
information to complete their applications, but only after several months had
elapsed. One of these two withdrew its application out of frustration. Two others
we spoke to also withdrew their applications out of frustration with the application
process.

Furthermore, FRA does not track applications and has not developed a process for
maintaining regular communications with applicants. As a result, FRA could not
                                                                                   9


respond to applicants’ inquiries about the status of their applications. For example,
9 of the 15 applicants we spoke with told us that RRIF program staff did not
provide information on the status of their applications when they requested it. Two
of these applicants stated that they withdrew their applications because of their
general frustration with the process, and would not recommend the program to
others unless FRA streamlines the application process.

FRA also did not always inform denied applicants of the reasons for the denials.
Two of three Class III short-line applicants that were denied stated that FRA did
not inform them of the reasons for the denials, and that they would not reapply to
the program.

FRA also did not inform applicants about the role of DOT’s Credit Council in the
review and decision making processes. For example, 12 of the 15 applicants we
spoke with informed us that throughout the application process, they were
unaware of the Credit Council’s role, the time the Council requires for review, and
its review criteria.

Furthermore, 10 of the 15 applicants we spoke with informed us that planning
their projects was difficult because of a lack of information on the process’
timeline. Officials from all four Class I railroads stated that they understood the
process and the time required to secure a loan in the private market. However, it
was not clear to them how long RRIF approvals take. These railroads noted that
this lack of information made it difficult to plan project financing because of the
uncertainty about the availability of loan funds. Officials from one passenger
railroad told us that they had to secure alternative financing—a bridge loan—
because unexpected delays during its RRIF application created funding gaps.

The American Short Line Regional Railroad Association (ASLRRA) has advised
its members not to apply to RRIF because of the program’s difficult application
process and uncertain timeframes. ASLRRA officials stated that before the
association will recommend RRIF to its members, the program needs a
streamlined application process and more complete program guidance.

RRIF’s Program Costs Were Burdensome for Small Railroads,
and Uncertain and Untimely Processes Outweighed Benefits for
Large Ones

Short-line railroads found the CRPs as well as the costs they may have to incur to
hire consultants for assistance with applications to be burdensome. For passenger
and Class I freight railroads, the program’s unclear process often outweighed the
benefits.
                                                                                  10


Officials at two short-line railroads that were denied loans informed us that the
requirements regarding the CRP—having to pay the entire cost upfront and not
being able to finance it through loan proceeds—concerned them when they
decided to apply. Officials at another railroad stated that the CRP requirements
contributed to its decision to not apply. Furthermore, ASLRRA officials informed
us that the requirement to pay the CRP prior to loan disbursement deters
Association members from applying. The CRP is similar to costs that railroads
face in private market financing. However, private markets allow borrowers to
finance these costs as parts of their loans.

Officials from short-line railroads also expressed concerns over the costs they may
incur to hire financial and legal consultants to assist with the application process.
According to officials at three of these railroads, the uncertain timeframes
involved in completing applications made estimating these costs difficult. Officials
at two other railroads informed us that they would not recommend RRIF to others
because of these costs. Officials at another railroad stated that they withdrew their
application because of these costs.

For passenger and Class 1 freight railroads, RRIF’s uncertain timeframes offset
the program’s benefits, including competitive interest rates and access to
long-term maturities. In a hypothetical comparison of the cost of borrowing
$100 million for a Class I freight railroad, we found that a RRIF loan could save
more than $23 million compared to a private market loan. See Exhibit E for our
comparison of RRIF loans to private market loans. According to officials at three
of four Class I freight carriers and two of seven passenger railroads, RRIF’s
uncertain timeframe would expose them to additional costs. For example, officials
of one freight carrier informed us that RRIF’s benefits were offset by the lack of
certainty about the timing of loan fund disbursal. These officials noted that they
would not consider applying for RRIF loans until changes were made to the
program. Officials of another Class I freight railroad informed us that private
markets offered certainty about loan proceed availability and that this certainty
outweighed RRIF’s benefits because of its importance for project planning.

CONCLUSION

Congress established RRIF to promote the availability of low cost funds for rail
infrastructure development. However, FRA’s administration of the program has
limited participation in the program. Only a small part of the $35 billion that the
Congress authorized is being used to develop improved rail infrastructure. As a
result, despite the overall favorable interest rate terms that the program provides,
the improvements to the Nation’s rail infrastructure that Congress envisioned in
establishing this program are not occurring.
                                                                                11


RECOMMENDATIONS

To shorten the review process and increase responsiveness to applicant concerns,
we recommend that FRA:

1. Develop comprehensive guidance for applicants that details the information
   needed to submit complete applications.

2. Make pre-application meetings mandatory and provide clear program guidance
   and related materials to applicants in advance of the meetings.

3. Develop a tool to track the progress of applications and establish a process for
   timely communication with applicants about the status of their applications.

4. Provide timely information to applicants on the reasons for denials

5. Work with the Credit Council to streamline the application review process and
   develop a risk based approach for reviewing applications.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided FRA a copy of our report on April 17, 2014, and received its
response—included in full in the appendix—on May 28, 2014. In its response,
FRA fully concurred with all five recommendations and provided acceptable
planned actions and target dates for completion. We consider these
recommendations resolved but open pending completion of the planned actions.

We appreciate the courtesies and cooperation of the Federal Railroad
Administration representatives during this audit. If you have any questions
concerning this report, please call me at (202) 366-5630, or Jay Borwankar,
Project Manager, at (202) 493-0970.
                                        #
cc: FRA Audit Liaison, ROA-3
    DOT Audit Liaison, M-1
                                                                                    12


EXHIBIT A. SCOPE AND METHODOLOGY

We conducted our work from March 2013 through April 2014, in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence we obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

To assess whether FRA has an effective process for evaluating and selecting RRIF
applications, we identified the program’s evaluation criteria by reviewing RRIF’s
authorizing legislation, associated regulations and program guidance documents.
Additionally, we interviewed RRIF and FRA officials and reviewed documents to
identify—(a) the process used to accept and review RRIF applications; (b) the
critical activities ingrained in the application process; and, c) the impact of parties
external to FRA on the application process. We also obtained application
processing data for each of the 29 applications received between January 1, 2010
and April 30, 2013 to identify the time taken to review those applications and
assess the impact of various internal and external entities RRIF’s application
processing time. We selected 5 of the 29 applications based on their unusual
circumstances or lengthy processing times, and reviewed FRA’s use of its
application process and documentation protocols. Finally, we interviewed a
representative of Credit Council to obtain the Council’s perspectives on the RRIF
application process and the Council’s impact on the processing of RRIF
applications.

To identify factors that influenced applicants’ decisions to apply for RRIF
financing, we interviewed a random sample of 22 officials. The sample included
4 successful applicants, 9 applicants whose applications were denied, withdrawn
or pending as of December 31, 2013, and 9 prospective applicants. The 13 past
and present applicants were selected from the 29 applications that were reviewed
as a part of this audit. The 9 prospective applicants were selected from a universe
of 643 RRIF eligible entities including inter-city passenger rail carriers, commuter
rail carriers and Class I, II and III freight railroads and included 2 applicants that
were misclassified because they had previously applied for a RRIF loan prior to
January 1, 2010. We also interviewed officials from key stakeholders groups such
as the Association of American Railroads, the American Short Line and Regional
Railroad Association to get their perspectives on the RRIF program. Exhibits B
and C provide more detailed information regarding the applications that met the
OIG’s scope criteria and the railroads included in OIG’s outreach efforts. In
general, our survey topics covered awareness of the RRIF and other DOT credit
programs, including RRIF application timelines, costs and potential benefits. We



Exhibit A. Scope and Methodology
                                                                               13


also inquired about the potential applicants’ decision to apply for a RRIF loan as
well as the potential applicant’s perspective of the RRIF program.




Exhibit A. Scope and Methodology
                                                                         14


EXHIBIT B. RRIF APPLICATIONS INCLUDED IN OIG REVIEW

The following RRIF applications were received by FRA between January 1, 2010
and April 30, 2013:

Passenger and Commuter Railroads:

1.   National Railroad Passenger Corporation (Amtrak)
2.   New York Metropolitan Transportation Authority
3.   Desert Xpress Enterprise LLC (XpressWest)
4.   All Aboard Florida (West Palm Beach to Miami)
5.   All Aboard Florida (Orlando Extension)

Class I Freight Railroads:

6. Kansas City Southern Railway Company

Short-line (Class II and III) Freight Railroads:

7. Great Lakes Central Railroad Inc.
8. C&J Railroad Company
9. Carolina Southern Railroad Company
10. St. Mary’s Railway West LLC (SMW)
11. Livonia, Avon and Lakeville Railroad Corporation
12. Permian Basin Railways Inc.
13. Eastern Maine Railway Company (1)
14. Eastern Maine Railway Company (2)
15. Sierra Northern Railway
16. Maryland and Delaware Railroad Company
17. Heber Valley Historic Railroad Authority
18. Northern Louisiana and Arkansas Railroad Inc.
19. Northwestern Pacific Railroad Company (NWP)

Other Railroad Related Entities:

20. Alameda Corridor Transportation Authority
21. GNP Railway Inc.
22. Lake Providence Port Commission
23. Port of Vancouver USA
24. Southwest Mississippi Regional Railroad Authority
25. Economic Development Corporation of Snyder Texas
26. Dyersburg Elevator Company, Inc.


Exhibit B. RRIF Ap plications Incl uded in OIG Review
                                                                 15


27. Northeast Texas Rural Rail Transportation District (NETEX)
28. Brookhaven Terminal Holding, LLC
29. Rocky Mountain Railcar and Repair Inc.




Exhibit B. RRIF Ap plications Incl uded in OIG Review
                                                                            16


EXHIBIT C. OIG’S SAMPLE OF PAST, PRESENT AND
PROSPECTIVE RRIF APPLICANTS

OIG conducted conference calls with each of these past, present and prospective
RRIF applicants:

Past and Present Applicants:

1. Alameda Corridor Transportation Authority
2. National Railroad Passenger Corporation (Amtrak)
3. C&J Railroad Company
4. Kansas City Southern Railway Company
5. Desert Xpress Enterprise LLC (XpressWest)
6. New York Metropolitan Transportation Authority
7. All Aboard Florida
8. Maryland & Delaware Railroad Company
9. North Louisiana and Arkansas Railroad Inc.
10. Port of Vancouver USA
11. St. Mary’s Railway West, LLC (SMW)
12. Livonia, Avon and Lakeville Railroad Corporation
13. Carolina Southern Railroad Company

Prospective Applicants:

1.   BNSF Railway
2.   Union Pacific Railroad
3.   Norfolk Southern Railway
4.   Montana Rail Link
5.   Winchester and Western Railroad
6.   D&I Railroad
7.   Trinity Railway Express (TRE)
8.   Northstar Commuter Rail (NSCR)
9.   Northern New England Passenger Rail Authority (NNEPRA)




Exhibit C. OIG’s Sample of Past, Present and Prospecti ve RRIF
Applicants
                                                                                       17


EXHIBIT D. OIG’S ANALYSIS OF SAMPLE RRIF APPLICATIONS

OIG obtained and reviewed application processing data for the 29 applications
received between January 1, 2010 and April 30, 2013. As seen in Figure 4, short-
line railroads submitted the highest number of applications (13), while passenger
and commuter railroads requested the most amount of funding ($11.6 billion).

Figure 4. RRIF Applications Received Between January 1, 2010
and April 30, 2013

     Number of Loans Requested                       Total Loan Amount Requested
         by Railroad Type                            by Railroad Type (In Millions)



                             5

           10                      1
                                            $277.2
                                                                          $11,613.6
                                            $211.1

                                             $54.6
                            13




        Passenger and Commuter Railroads             Class I Railroads
        Short-line (Class II and III) Railroads      Other Railroad Related Entities

Source: OIG analysis of FRA data

Furthermore, as seen in Figure 5, as of December 31, 2013, 4 of the 29 applicants
received RRIF loans and 9 applicants were undergoing review. Four applications
were denied and 12 had been withdrawn. Figure 6 presents the processing time for
the 29 applications.




Exhibit D. OIG’s An al ysis of Sample RRIF Applications
                                                                                                                                                               18


Figure 5. Status of RRIF Applications Received Between
January 1, 2010 and April 30, 2013
                            15


                            12
   Number of Applications




                                                          3
                                  1
                            9
                                  1


                            6     4                       6

                                                                                                        2
                                  1
                            3
                                                          2                                             2
                                  3                                                                                                               3
                                                          1                                             1
                            0
                                 2010                   2011                                        2012                                        2013

                                        Successful              Denied                  Withdrawn                             Pending

Source: OIG analysis of FRA data

Figure 6. Processing Times and Outcomes for RRIF Applications
Received Between January 1, 2010 and April 30, 2013

                        St. Mary's Railway West, LLC (SMW)          60
            Northwestern Pacific Railroad Company (NWP)              82
                                     Sierra Northern Railway              124
                    Maryland & Delaware Railroad Company                        183
        Southwest Mississippi Regional Railroad Authority                       199
        Development Corporation of Snyder Texas (DCOS)                           212
                                     C&J Railroad Company                         228
                    Kansas City Southern Railway Company                              238
                                                    Amtrak II                         244
                                            GNP Railway Inc.                          250
             All Aboard Florida (West Palm Beach to Miami)                                  291
                     All Aboard Florida (Orlando Extension)                                 291
 Northeast Texas Rural Rail Transportation District (NETEX)                                  314
             Northern Louisiana and Arkansas Railroad Inc.                                    330
                           Dyersburg Elevator Company, Inc                                        343
                      Carolina Southern Railroad Company                                          349
                                 Permian Basin Railway Inc.                                       358
                    Heber Valley Historic Railroad Authority                                                440
                                     Port of Vancouver USA                                                  456
            Livonia, Avon & Lakeville Railroad Corporation                                                        519
                          Lake Providence Port Commission                                                           563
                        Eastern Maine Railway Company (2)                                                               579
                    Rocky Mountain Railcar and Repair, Inc.                                                                   677
                            Great Lakes Central Railroad Inc.                                                                       753
                        Eastern Maine Railway Company (1)                                                                           761
                         Brookhaven Terminal Holding, LLC                                                                           764
                                Desert Xpress (XpressWest)                                                                                805
                 Alameda Corridor Transportation Authority                                                                                  841
           New York Metropolitan Transportation Authority                                                                                             985

                                                                0          200                    400              600              800           1,000     1,200


                                                                Successful             Denied                 Withdrawn              Pending

Source: OIG analysis of FRA data
Note: Processing time for pending applications is calculated from application date to
December 31, 2013.


Exhibit D. OIG’s An al ysis of Sample RRIF Applications
                                                                                              19


EXHIBIT E. COMPARISON OF RRIF AND PRIVATE MARKET
LOAN COSTS
We compared the cost of borrowing $100 million from the private market to the
cost of obtaining a $100 million secured RRIF loan. For the private market we
assumed a 30-year unsecured bond issuance for an investment grade Class I
freight railroad. For the RRIF loan, we assumed a 30 year loan at the rate for a
30 year treasury note. Table 1 summarizes the result of our analysis.

Table 1. Hypothetical Comparison of an Investment-Grade
Bond Issuance to a RRIF Loan

                                                  Unsecured Bond
Type of Debt Instrument                                                        RRIF Loan
                                                     Issuance
Face/Loan Amount                                      $100,000,000            $100,000,000
                                                                 a
Coupon/Loan Rate                                         4.40%                    2.92%b
Term (Years)                                                30                      30
                                     a
Underwriters Fee (@ 0.875%)                             $875,000                    N/A
Investigation Fee (@ 0.5%)                                 N/A                   $500,000
                                 c
Credit Risk Premium (@ 2%)                                 N/A                  $2,000,000
Subtotal Fees and Upfront Costs                         $875,000                $2,500,000
                                         d
Present Value (PV) Interest Cost                      $66,490,499              $41,467,563
Total PV of Fees and Costs                            $67,365,499              $43,967,563
Source: OIG Analysis
a
  Coupon rate and underwriters fee assumptions based on Surface Transportation Board’s 2012
Cost of Capital Data.
b
  Interest rate based on the average of 2012 30-year Treasury Note.
c
  We assume the RRIF loan is disbursed as a lump sum requiring the applicant to pay the credit
risk premium upfront and that it will not be returned to the borrower.
d
  Interest cost represents the present value of interest paid over the life of the debt instrument
utilizing a discount rate of 1.8 percent based on the average of 2012 10-Year T-Bill

Comparing total fees and upfront costs for the two debt vehicles, the difference is
significant. As illustrated in table 1, the RRIF application fee of up to one-half of
one percent of the loan amount is a non-refundable and covers the expenses FRA
incurs to retain independent financial analysts and legal assistance. Bond issuance
fees are primarily composed of the underwriter’s fee, which for our example is
0.875 percent of the amount but can vary based on the creditworthiness of the
borrower. This fee is paid from bond issuance proceeds.

Because RRIF’s interest rates are the same for all applicants—regardless of
creditworthiness—RRIF borrowers must pay a CRP to offset the differences in


Exhibit E. Compari son of RRIF and Pri vate Market Loan Costs
                                                                                  20


creditworthiness among applicants. CRPs have generally ranged between zero and
five percent of the loan amount and must be paid prior to loan disbursement.
Private markets assess the risk associated with a bond offering and charge a higher
interest rate as well as higher upfront costs that can be paid from loan proceeds for
higher risk loans. The primary difference in these approaches is that the CRP is an
upfront cost while a bond issuance amortizes the cost over the life of the loan.
While a RRIF loan may be cheaper than a bond issuance, the structure of the CRP
may present a cash flow challenge to a RRIF borrower.

In our hypothetical scenario, the bond issuance fees are $1.6 million less than the
RRIF loan, however, the RRIF loan charges less interest than the bond issuance.
We utilized a bond interest rate of 4.4 percent paid semiannually and a RRIF
interest rate of 2.92 percent based on the average 30-year Treasury note for 2012.
As shown in Table 1, these rates yielded on a present value basis approximately
$66 million versus $41 million in interest costs for the bond and RRIF loan
respectively. Consequently, the savings for the RRIF loan was approximately
$25 million. Taking into account fees, upfront costs and interest paid, the RRIF
loan costs $23.4 million less than the bond issuance in this scenario. Even if we
assume a higher CRP estimate of five percent, the savings generated by borrowing
under the RRIF loan is still favorable, by approximately $20.4 million on a
$100 million loan.




Exhibit E. Compari son of RRIF and Pri vate Market Loan Costs
                                                                   21


EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT



Name                                    Title

Yana Hudson                             Program Director

Jaydeep Borwankar                       Project Manager

James Lonergan                          Senior Financial Analyst

Kevin Sanders                           Senior Financial Analyst

Deborah Kloppenburg                     Senior Auditor

Tom Denomme                             Project Consultant

Susan Neill                             Writer/Editor

Megha Joshipura                         Statistician




Exhibit E. Major Contributors to This Report
                                                                                                               22


           APPENDIX. AGENCY COMMENTS




           U.S. Department
           of Transportation
           Federal Railroad Administration               MEMORANDUM
           INFORMATION: Management Response to Office of
Subject:     Inspector General Draft Report on the Railroad                                 Date:   May 28, 2014
             Rehabilitation and Improvement Financing Program

  From:
           Joseph Szabo
           Federal Railroad Administrator

           Mitchell L. Behm                                                          Reply to the
    To:
                                                                                         Attn of:   ROA-03
           Assistant Inspector General for Surface Transportation Audits


           The Federal Railroad Administration’s (FRA) implementation of the Railroad Rehabilitation and
           Improvement Financing (RRIF) program has successfully supported nearly three dozen borrowers
           and obligated over $1.7 billion in loans that in many cases were critical to the success of short line
           railroads. Both prior to, and throughout the Office of Inspector General’s (OIG) audit, FRA has
           implemented numerous program enhancements that improve the quality of applications and
           streamline the review time for most applicants. As a result, FRA has implemented actions to
           satisfy OIG’s first four recommendations.

           FRA will continue to implement best practices to improve its administration of the RRIF
           program, as it recognizes the inherent challenges in RRIF’s authorizing statute, Federal policies,
           and the population of potential applicants. For example, RRIF is appropriate for a relatively small
           population of potential borrowers, compared to other Federal credit programs or commercial
           lending and private capital markets. Moreover, FRA has no discretion to subsidize the required
           credit risk premium for potential borrowers. In addition, the applicants are in part responsible for
           application quality, responsiveness to requests for further information, and prompt payment of
           processing fees associated with the application. Some applicants further lengthen the process by
           changing their project proposals during the application evaluation process or fail to provide
           sufficient financial information for the Government’s due diligence. Finally, FRA requires
           recommendations from the Credit Council and concurrence from the Office of Management and
           Budget on the credit risk premium calculation to close a loan. FRA will continue to improve the
           quality of applications and looks forward to implementing OIG’s fifth recommendation to
           streamline the application process and explore refinements of the current risk based approach.




           Appendix. Agency Comments
                                                                                                 23


OIG Recommendations and FRA Responses

Recommendation 1: Develop comprehensive guidance for applicants that details the information
needed to submit complete applications.
    Response: Concur – FRA developed, and added to its public website, documentation that
    supplements previously available guidance to potential RRIF applicants. These materials
    include both program information (Fact Sheet and Information Presentation) and application
    documents (Application Process – Quick Guide, Draft Application Checklist, Final
    Application Checklist, and Application Form). By June 6, 2014, FRA will also add a
    detailed program guide to the public website. At that time, FRA will have satisfied this
    recommendation and requests that OIG then consider it closed.

Recommendation 2: Make pre-application meetings mandatory and provide clear program
guidance and related materials to applicants in advance of the meetings.
    Response: Concur – Formal pre-application meetings are an important step in the process
    and are now mandatory. The requirement for such meetings is documented in the RRIF
    materials referenced above. For example, step 1 in the Application Process – Quick Guide
    states, in part, “[FRA] offers Information Sessions to help potential applicants fully
    understand the RRIF program, including the objectives, requirements and process. Sessions
    are required for all new applicants and are highly recommended for returning applicants.”
    Consequently, FRA has satisfied this recommendation and requests that OIG consider it
    closed.

Recommendation 3: Develop a tool to track the progress of applications and establish a process
for timely communication with applicants about the status of their applications.
    Response: Concur – To improve its tracking of each step in the application process, FRA
    developed and deployed a tracking tool. FRA team members utilize this tool currently to
    track every step of the application process, including documentation of all formal
    communications from initial stages of information gathering to the final decision on loans
    accepted for review.

    In addition, FRA’s standard operating procedures for processing applications include
    requirements related to communication with applicants. The procedures require FRA staff to
    work with applicants to establish a schedule for the review process and notify applicants
    regarding the completion of steps and upcoming milestones. Staff is also required to notify
    applicants of any issues impeding an application’s progress.

    FRA demonstrated the tracking tool to OIG and, by June 15, 2014, will provide OIG a copy
    of the standard operating procedures, thereby fulfilling this recommendation. Thus, we
    request that OIG close this recommendation after receiving the standard operating
    procedures.


Appendix. Agency Comments
                                                                                                  24


Recommendation 4: Provide timely information to applicants on the reasons for denials.
    Response: Concur – FRA strengthened its pre-application meeting procedures to ensure that
    potential applicants understand, prior to drafting an application, whether they are likely to be
    denied. FRA procedures also direct staff to offer unsuccessful applicants the opportunity to
    discuss reasons for the denial. In addition, FRA documents the reasons for the denial in a
    letter to the denied applicant. By June 15, 2014, FRA will provide OIG a recently executed
    example of this procedure and FRA’s standard operating procedures that detail these
    measures, after which, we request that OIG consider this recommendation closed.

Recommendation 5: Work with the Credit Council to streamline the application review process
and develop a risk based approach for reviewing applications.
    Response: Concur – FRA will consult with the Office of the Assistant Secretary for Budget
    and Programs (Assistant Secretary) on how best to develop and submit streamlining
    proposals for Credit Council (Council) consideration. Moreover, FRA will seek the Assistant
    Secretary’s input on how best to work with the Council to identify refinements to the current
    risk-based approach that are both feasible and unlikely to increase the Government’s
    exposure to potential losses. (A risk-based approach is currently in place regarding
    applications for $1 billion or more.)

    FRA will begin working immediately on process improvements with the Assistant Secretary
    and Council members. Therefore, we request that OIG close this recommendation within
    90 days of OIG’s final report issuance date after FRA demonstrates its efforts to work with
    the Credit Council.



We appreciate this opportunity to offer additional perspective on the OIG draft report. We also
appreciate the courtesies of the OIG staff in conducting this review. Please contact Rosalyn G.
Millman, Planning and Performance Officer, at 202.384.6193, or Corey Hill, Director of the
Office of Program Delivery, at 202.493.0296, with any questions or requests for additional
assistance.




Appendix. Agency Comments
